         OFFICE OF
    INSPECTOR GENERA




    THE   RYAN WHITE     CARE ACT:
SPECIAL PROJECTS OF NATIONAL SIGNIFICANCE
                       OFFICE OF INSPE(XOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Setices, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
caqing out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This inspection was performed under the direction of William C. Moran, Regional Inspector
General, and Natalie Coen, Deputy Regional Inspector General, Office of Evaluation and
Inspections, Region V. Participating in the project were:

CHICAGO                                                             HEADQUARTERS

Barbara Butz (Project Leader)                                              Alan S. Levine
Jean DuFresne


For a copy of this report, please call (312) 353-4124.
 Department of Health and Human Semites

         OFFICE OF
    INSPECTOR GENERAL




    THE   RYAN WHITE CARE ACT:

SPECIAL PROJECTS OF NATIONAL SIGNIFICANCE




                 SSWZC*

           �
           +
             N            “%
          E                    JUNE GIBBS BROWN
          3s                    Inspector General

          ‘% -g                    APRIL 1994
            *baa
             >                    OEI-05-93-00332
                       TABLE                     OF CONTENTS


                                                                                                                    PAGE


INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


 � SPNS Grantee Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


 �SPNS      Expenditures         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


APPENDIX


fkSPNS      Grantees       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..+.     ..A-l

                             INTRODUCTION


PURPOSE

To describe grantee expenditures under the Ryan White Act’s Special Projects of
National Significance.

BACKGROUND

On August 18, 1990, Congress passed Public Law 101-381 entitled The Ryan White
Comprehensive AIDS Resources Emergency (CARE) Act of 1990 (the Act). The
purpose of the Act was to provide “emergency assistance to localities disproportionately
affected by the Human Immunodeficiency Virus (HIV) epidemic and to make financial
assistance available to States and other public or private nonprofit entities to provide for
the development, organization, coordination and operation of more effective and cost
efficient systems for the delivery of essential services to individuals and families with HIV
disease.” Congress funded the Ryan White Act at about $221 million for Fiscal Year
(FY) 1991,$276 million for FY 1992, and $348 million for FY 1993. The FY 1994
appropriation is $579.4 million.

The Act, which is administered by the Health Resources Semites Administration
(HRSA) within the Public Health Semite (PHS), is multifaceted, with four titles directing
resources to various entities and allowing grantees maximum flexibility in the use of
funds, particularly at the local level. Title I provides emergency relief grants to cities, or
eligible metropolitan areas, disproportionately affected by the HIV epidemic. Title 11
provides formula grants to States and territories to improve the quality, availability, and
organization of health care and support semices for individuals and families with HIV
disease. Title III(a), intended to provide formula grants to States for early intervention
services on an outpatient basis, has not been funded to date. Title III(b) supports early
intervention services on an out-patient basis, including counseling, testing, referrals,
clinical and diagnostic services, and other thers pe ut ic services. Title IV was to provide
demonstration grants for research and services for pediatric patients, and requires studies
on partner notification and HIV disease in rural areas. Congress appropriated $22
million for FY 1994 for existing HRSA pediatric and adolescent AIDS demonstration
projects to be folded into Title IV.

Suecial Proiects of National Simificance

Up to 10 percent of funds appropriated for Title 11may be set aside for Special Projects
of National Significance (SPNS) grants. The SP!4S grants are competitive grants to
public and private nonprofit entities for special projects that advance knowledge and
skills in the delivery of health and support sewices to persons with HIV or AIDS.
Projects are also chosen for their potential for national replication and must include
provisions for internal evaluation and dissemination of findings. Grants are provided on
a 3-year cycle.


                                               1
In FY 1991, Title II was funded at $88 million, and out of this, about $4.4 million went to

22 SPNS grantees with actual spending occurring in FY 1992.1 In FY 1992, $5.7 million

was appropriated for 26 SPNS projects to spend in FY 1993. The next year, the projects

were funded at $6.3 million. For FY 1994, nearly $11 million was appropriated for SPNS

grantees to spend in FY 1995. See Appendix A for a description of the 22 SPNS

projects funded in FY 1991 (1992).


Projects must target one of the following goals:


   ��
        Improve access to health and support services through the reduction of
        sociocultural, financial and/or logistical barriers as especially experienced by rural
        residen~ wome~ childreq adolescen~ incarcerated persons, recently released
        inrnat+ American Indians and Alaska Natives.

   ��
        Provide advocq    semices to ensure adequate, appropriate               and timely receipt of
        health and support semices.

   �
        Reduce social isolation of people with HIV to improve their quality of life.

   ��
        Integrate mental health setices with primary care services to develop a
        comprehensive treatment regimen.

Grantees submit annual reports which contain a description of the project’s progress in
reaching the goal(s) and objectives stated in their management plan. The management
plan is required as part of the grant application, and must describe measurable project
objectives that specifically relate to the selected service goal (such as access), the
project’s methodology, and the population to be served by the proposed project. The
annual progress report must also include descriptions of any problems encountered, steps
taken to remedy the problems, and any significant findings to date. Continuation funding
decisions are based upon these reports.

SCOPE AND M131’HODOLOGY

The Ryan White Act will come up for reauthorization in FY 1996. This study is one in a
series of studies on the implementation of the Ryan White Act which will provide
information useful for the debate surrounding reauthorization. The other reports are:

The Ryan White CARE Act: Funding Formulas                                           0E1-05-93-O0330€
l%e Ryan White CARE Act: FY 1992 Title I and Title II€
Expenditures By Sewice                                                              OEI-05-93-00331€


    lThe meal year for regular Title II grantees begins in April following the beginning of the fiscal year.
However, due to the competitive nature of the grants, SPNS grantees do not reeeive their awards until [he
following October, creating a year delay in spending. This created some initial confusion in our requests for
information   from both HRSA and the grantees.      However, appropriated   IV 1991 funds were spent and
reported on by the grantees as FY 1S92 funds, and are so regarded in this report.


                                                     2
i%e Ryan White CARE Act: Consorh”aActivities                        0EI-05-93-O0333

l%e Ryan White CARE Act: Technical Repoti of W 1992€
Expenditures                                                        0EI-05-03-O0334€

To obtain information regarding SPNS service category expenditures we used information
in the “HRSA AIDS Activities” manual issued in December 1992, as well as grantee
award and expenditure information given to us by HRSA. We also contacted some of
the grantees for this information.

This inspection was conducted in accordance with the Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                            3€
                                       FINDINGS


SPNS GRANTEE         ACIWHTES

The SPNS grant awards for FY 1992 ranged from about $112,000 to $275,000. The
scope of the projects varied widely. For example, with a grant of approximately
$142,000, one project recruited older women from the African-American communities in
their city to volunteer as emotional support persons and network conveners for African-
American women with HIV disease. For about the same grant amount, another grantee
conducted anti-discrimination activities by operating a hotline, developing multi-lingual
brochures, developing a directory of resources and coordinating the activities of public
and private agencies capable of addressing HIV discrimination. Several of the grantees
focused on coordinating mental health services with primary care services, and one of the
grantees tested a model for training members of minority populations as community
health advisors in rural counties.

Below are the SPNS service goals and target populations as served by the SPNS
grantees:2

Sexvice Goals                                  Target Pomdations


access - 13 grantees;
                         rural -3 grantees;

advocacy seMces -6 grantees;
                  women - 3 grantees;

social isolation -5 grantees; and,
            children - 3 grantees;

mental health -6 grantees.
                    adolescents - 1 grantee;

                                               prison inmates -2 grantees;

                                               recently released inmates -3
 grantees;
                                               Native Americans -1 grantee;
 and,
                                               open population - 3 grantees.



Grantees include community based
 service organizations (10), State and local health
departments (6), public or private
 hospitals (3), institutions of higher education (2), and
national service provider organizations (1). In terms of geographic distribution, 11 of the
projects are located in the east, four each are located in the midwest and the south, and
two are located in the west. One project is located in Puerto Rico.

SPNS EXPENDITURES

From the FY 1991 appropriation, HRSA granted $4.4 million to 22 SPNS grantees to
spend in FY 1992. We found that the grantees actually spent $3.3 million, or 75 percent


    2The numbers of grantees add up to more than 22 because some projects address more than one service
or population.


                                                  4
of the awarded money, leaving over $1 million to carry over into the next year. We
divide expenditures into four broad categories: medical services, SUppOfi servi~$
pharrnaceutix     and administration/pkmning and evaluation. The medical services and
support services categories are comprised of a number of semices which are broken out
in Table 1. Below, Figure 1 shows that 22 percent of the funds were spent on medical
services, 65 percent went to support services, less than 1 percent went to
pharmaceuticals, and at least 12 percent were expended on administration and planning
and evaluation.

It is important to keep in mind that due to the innovative natures of the SPNS grantees,
actual services provided by the grantees may change from year to year.



                          FY 1992 SPNS Expenditures
     Rgum   1

                           -      Servic- (6!5%)




                                                             Medical Services   (22%)




                                          AdmilJFlanning (12%)



Table 1 breaks out SPNS grantee expenditures by actual service (as opposed to category
or goal) provided. We obtained this information in two ways. First, if the SPNS project
was specific in the service it provided, such as mental health counseling, we used
information provided to us by HRSA.

Second, if their activities involved more than one service, we contacted the grantees
directly. The grantees we contacted were able to provide us with specific information to
varying degrees. Some grantees could only describe general areas of expenditure while
others provided specific amounts and services. For example, one grantee explained that
costs for mental health counseling, outreach, and education/risk reduction, were all
included under the heading “case management.” Also, in one case, the amount spent
reported by the grantee did not match ~he amount given to us by HRSA. In this case we
used the amount reported by the grantee as it was specifically broken down by service.



                                             5

 SERVICES                                           FY 1992 EXPEND.         TOTAL 70             GRANTEES

 lvrAL                                                       $3326,956            100%0               22

 Pharmaceutical                                                 S8Xi5               *                  2

 Medical SeMces?                                               $730Z18             2270

          Mental Health Treatment/                             $712,123            21%                 6
          Therapy/Counseling
          Dental Care                                           $15,575              *                 2
          Medical Care                                           $2,520              *                 1
 supportseMceS                                               $2JW70                65%

          Case Management                                    $1,028,730            3170                9

          0ther4                                               $787,293            24940               7

          Outreach                                             !$239,095            770                3

          Housing Assistance                                    $37,925             170                1

          Education/Risk Reduction                              $22,588              *                 1
          Other Counseling/Not Mental                           $19,121              *                 1
          Health
          Transportation                                        $17,004              *                 5
          Client Advocacy                                         $9,561             *                 1

          Food Bank/Home Delivered                                S5,935             *                 3
          Meals

          Emergency Financial Assistance                          $5,118             *                     1

 ~$                                                            M15,983             13%

          Administration                                       S32 1,936            10%               22

          Planning & Evaluation                                  S94,047            3%                 3
 ~                                                                                                 Table 1


   3This category presents dollars related to direct mcd u i services.         For this reason, we place case
management in “support setvices” rather than “reed ica1 umms.=

     4Thme activities include anti-discrimination    activll M. [hc dekclopment     of support    networks, and the
training of cultural advisors.

    5For grantees that we did not directly contact, we assu mut 5 percent of funds were spent for administrate ion
because the grantees we did contact often allocated signlfican[ly more than 5 percent to administration.
According to HRS~ because of the innovative nature of I heir work, SPNS grantees are not held to the same
5 percent cap as other grantees under Title II. Therefore, we believe 5 percent is a conservative estimate. We
did not make the same 5 percent assumption for planning and CVJIuat ion, as these expenditures must be built
into the project design.


                                                        6
                             APPENDIX                    A�

lHE SPNS GRANTEES:


Arecii    Municipal Government
Arecii,   Puerto Rico

This project identifies women and children with HIV disease in five low-income housing
projects, and attempts to improve their access to medical and psychosocial services
through coordination with private and public agencies.

Association for the Care of Children’s Health
Bethes@ Maqdand

This project assists communities to develop local family-to-family support networks in
order to reduce isolation and increase social and emotional support for families affected
by HIV disease.

Chase-Brexton Cliniq Inc.
Baltimore, Maryland

The Chase-Brexton Clinic provides a basic mental health assessment for its HIV-infected
clients and offers case management services to clients following the assessment.

The Damien Center, Inc.
Indianapol@ Indiana

The Indiana HIV Advocacy Program attempts to increase access to care for HIV-
infected people by eliminating the barrier of discrimination. To this end, the Advoca~
Program educates legislators and others about civil rights protection for HIV-infected
persons, strengthens linkages between advocacy resources and creates new resources in
targeted areas, uses the Indiana HIV Services Coalition to advocate for protection for
HIV-infected persons, and maintains a data base of collected discrimination cases against
HIV-infected persons.

Family Planning Council of Southeastern   Pennsylvania
Philadelphi~ Pennsylvania

The Inmates and AIDS Intervention Program assists HIV-infected inmates and their
dependents receive care in the community after their release or parole.




                                           A-1

The Fortune Society, Inc.
New Yorlq New York

Through its ETHICS II program, The Fortune Society addresses the needs of recently
released inmates with HIV disease. The goals are to train new staff to provide sefices
including counseling, education, career development, court advocacy, and outpatient drug
treatment.

Henry Street Settlement
New York New York

The Henry Street Settlements’s Community Consultation Center (CCC) has developed
the first school-based AIDS Bereavement Group for young children. Among other
mental health semices, the CCC helps children whose parent has died from AIDS resolve
emotional feelings and adjust after the parent’s death.

Indiana State Board of Healt@ Acquired Disease Division
Indianapol.@ Indiana

The Indiana Integration of Care Project integrates mental health services with primary
health care of HIV-infected clients on a State-wide basis. Referrals to a State-wide
system of comprehensive health care and human services are enhanced by a voucher
system.

Massachusetts AIDS DkriminationInitiatiw,Inc.
hkwtoq Massachusetts

The Massachusetts AIDS Discrimination Initiative provides information through an
AIDS discrimination hotline, multi-lingual brochures, and a directory of public and
private resources to persons who experience HIV discrimination. The Initiative also
documents the nature and scope of HIV discrimination, and coordinates activities of
public and private agencies available to address HIV discrimination.

Michigan Protection and Advocacy SeMces
Lansii&Michigan
The HIV/AIDS Advocacy Project provides legal education and advocacy services for
persons with HIV disease to allow them to gain access to support services and medical
care.

 Missouri Department of Heal@ Bureau of AIDS Prevention
 Jefferson City, Missouri

 This .moiect
          .   creates Rural Resource Centers (RRCS) to work with the established
 network of local community action agencies to provide a wide range of services for rural
 HIV/AIDS clients. The RRCS will provide information about support services available,


                                           A-2
including emergency financial assistance and programs to finance dental and medical

care.


Montefiore Medical Center, Department      of Family Medicine

Bromq New York


In three Montefiore Ambulatory Care Network sites, and through a Drug Abuse

Treatment Program, this project integrates an AIDS-related mental health service into its

primary care network. The mental health service provides culturally sensitive

psychosocial care to improve patients’ participation in medical and psychosocial regimens.


National Native American AIDS Prevention Center

Oaklan~   California


The National Native American AIDS Prevention Center operates community-based

programs in Tucson, Arizona and Oklahoma City, Oklahoma. The programs provide

case management and client advocacy services to increase access to care for Native

Americans with HIV disease.


New York University College of Dentistry	
New Yorlq New York	

The New York University Dental Center provides clinical outreach programs to adult
women, adolescents, and children from social groups at high risk for HIV-infection.
Dental screening and detection of various oral pathologies related to HIV-infection are
provided as are routine and emergency dental care, and referral to other medical and
social care. In addition to making care accessible to an often neglected segment of the
HIV-infected population, the project educates dental students and increases their
knowledge of and confidence about working with HIV-infected patients.

North Carolina Department of Environrnen~ Heah@ and Natural Resources	
Raleig& North Carolina	

Project REACH (Rural Education, Advocacy and Care for HIV) trains members of
minority populations as community health advisors in five rural counties. The advisors
help community residents access local or regional services and overcome the barriers of
transportation, confidentiality, geographic or social isolation, and stigmatization of people
living with HIV.

outreach Inc.	
Atlan@ Georgia	

Mothers Offering Mothers Support (MOMS) recruits older women to serve as support
network conveners and emotional support persons for African American women with
HIV disease. The program also gathers information from females with HIV disease,
regarding access to care and support services.


                                            A-3
Protection and Advocacy System	
Albuquerque, New Mexico	

The project is a State-wide effort to address discrimination issues in a largely rural State
with significant minority populations. The project provides advocacy services to people
with HIV/AIDS, and training to health care providers on advocacy and legal issues.

Rhode Island State Department of Health, AIDSBI’D         Division	
Providence, Rhode Island	

This project, in collaboration with the Rhode Island Department of Corrections, helps
HIV-infected inmates access semices in the community upon their release. The program
provides pre-release counseling, discharge planning, and follow-up monitoring, to ensure
the continuity of medical semices and psychosocial care.

St. Joseph’s Hospital and Medical Center	
Patersmq New Jersey	

The program provides mental health services to HIV patients receiving care the
hospital’s primary care clinics. Each HIV patient receives a thorough mental health
assessment and is assigned to the most appropriate treatment, including support services
for the patient’s family and linkages to drug rehabilitation programs if necessary.

Trustees of Health and Hospitals	
lbsto~ Massachusetts	

No One Alone with HIV (NOAH) is a hospital-based program designed to increase the
sensitivity of primary care providers to the potential or actual mental health problems of
HIV/AIDS patients. The program aims to increase the use of available mental health
services and psychosocial support for HIV-infected patients and their families.

University of Miami School of Medicine, Department of Obstetrics/Gynecology	
M*      Florida	

Through home visits, the Transitional Advocacy for HIV-infected Women and their
Children project provides information, support, and guidance to women newly informed
that they have HIV-disease. Other assistance includes meal vouchers, transportation,
pre-enrollment in the social service network, and other advocacy.

Ware County Board of Health	
Waycr~   Georgia	

This project tests a model of establishing HIV wellness centers in five counties to provide
early medical and social services for rural people with HIV/AIDS. Case management is
used to overcome barriers to care such as isolation, poverty, transportation, and limited
health resources.


                                             A-4

